APPENDIX A

In the Supreme Court of Missouri
January Session, 2020
State ex rel. Robert Barnes,
Petitioner,
No. SC98352
HABEAS CORPUS
Mississippi County Circuit Court No. 19MI-CV00324
Southern District Court of Appeals No. SD36464
Jason Lewis,
Respondent.
Now at this day, on consideration of the petition for a writ of habeas corpus herein to the
said respondent, it is ordered by the Court here that the said petition be, and the same is hereby
denied, and motion for appointment of a master overruled.
STATE OF MISSOURI-Sct.
I, BETSY AUBUCHON, Clerk of the Supreme Court of the State of Missouri, certify that
the foregoing is a full, true and complete transcript of the judgment of said Supreme Court, entered
of record at the January Session thereof, 2020, and on the 17th day of March, 2020, in the aboveentitled cause.
WITNESS my hand and the Seal of the
Supreme Court of Missouri, at my office in
the City of Jefferson, this 17th day of March,
2020.

, Clerk

, Deputy Clerk

1a

JUDGMENT

MANDATE

vs.

Supreme Court of Missouri

APPENDIX A

2a

APPENDIX B

Missouri Court of Appeals
Southern District
No. SD36464
STATE OF MISSOURI EX REL,
ROBERT BARNES,
Relator,
vs.
JASON LEWIS, SUPERINTENDENT
OF THE SOUTHEAST CORRECTIONAL
CENTER,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)

FILED
DEC 13 2019
CRAIG A. STREET
MISSOURI COURT OF APPEALS
SOUTHERN DISTRICT

ORDER
On this 13th day of December, 2019, the Court takes up for consideration relator’s’ Petition
for Writ of Habeas Corpus, filed today’s date. Having seen and examined said application and
having been advised in the premises, the Court does deny the petition.

cc:

Attorneys of Record

3a

APPENDIX C

4a

